L

1

gO“790
W
No
IN THE
SUPREME COURT OF THE UNITED STATES

CHRISTOPHER KNUTE SKAGEN
Petitioner,
v.
OREGON STATE BAR
Respondent.

On Petition for a Writ of Certiorari
To the Oregon Supreme Court

FILED .
APR 1 6 2021

PETITION FOR WRIT OF CERTIORARI

Christopher Knute Skagen, OSB 91102
pro se
82 Queens Drive, #12,
Lyall Bay,Wellington,
New Zealand 6022
Ph: 02041242740.
skagenlaw@gmail.com

Susan Cournoyer, OSB #863381
Counsel ofRecord
Oregon State Bar
16037 Upper Boones Ferry Road,
Tigard, OR 97281-1935
Ph: (503)620-0222 x 324
SCournoyer@osbar.org

2

'v
QUESTIONS PRESENTED

1.

For a judgment to be enforced, the originating statute must not just
state ‘judgment,’ as in BR 3.5(a) but it must also state ‘and a court of a
foreign country,’ therefore the judgment from New Zealand cannot be
enforced reciprocally. ‘Jurisdiction’ is not defined in Bar rules, and it is
used here for a reciprocal disciplinary judgment from the court of a
foreign country.

2. The statutory standard of evidence in New Zealand disciplinary
proceedings is ‘on the balance of probabilities.’ This standard is not
sufficient to allow a finding in the United States, which requires the
higher standard of‘clear and convincing evidence’ for lawyer discipline.
The Court erred in stating that such evidence standard was sufficient
to uphold a disciplinary violation in Oregon. Although Bar proceedings
are considered sui generis, like criminal matters, they are a lifetime
judgment of personal integrity. The New Zealand standard does not
meet the United States’ evidentiary standard and to adopt such a
standard violates due process. The statutory standard of evidence in
New Zealand is ‘on the balance of probabilities.’ This standard is not
sufficient to allow a finding in the United States, which requires a
higher standard. The Court erred in stating that such evidence
standard was sufficient to uphold a disciplinary violation in Oregon. A

)

3

V

lower standard violates the Fifth and Fourteenth Amendments of the
United States Constitution.
3. The Petitioner invoked the Substantive Due Process defense argument
of vagueness, which embodies the definition of misconduct in New
Zealand. The Lawyers and Conveyancers Act 2006, Section 7(l)(a)(ii)
definition of misconduct, is autocratic, subjective and majoritarian,
violating the substantive due process of the Fifth and Fourteenth
Amendments of the Constitution of the United States.
4.

The tribunal and the High Court used the defenses and factual and
legal arguments in Petitioner’s pleadings as a means of questioning his
honesty and inflaming the proceedings. The Petitioner’s honesty and
integrity were criticized, and his evidence marginalized and ignored.
This was a violation of procedural due process and a violation of his
substantive due process rights under the First and Fourteenth
Amendments of the United States Constitution. Freedom of Speech in
legal proceedings must be enforced.

5. The Law Society suspended Petitioner from practice without adequate
notice or hearing by refusing to continue membership based on a lien
they claimed over it for court costs. Such a lien is unlawful. There are
no Due Process procedural rules regarding non-issuance of a practising
certificate. Suspension from practice without adequate notice and no
hearing is a violation of the right to Due Process under the Fifth and

4
Fourteenth Amendments of the United States Constitution. This
concurrent narrative, which caused damage to a client, was removed
from the case and is a defense to such an alleged violation.
6. The Petitioner was unable to appear at the Law Society Tribunal
because an accused must be physically present. Remote appearance is
forbidden by the rules. He disagreed with material facts, and with
witness statements and affidavits. Other issues of witnesses,
subpoena’s and other matters of trial created issues in the High Court
that are endemic to the system. This was a violation of procedural due
process under the Fifth and Fourteenth Amendments of the United
States Constitution.
7. The Petitioner objected to one member of the tribunal panel, his
objection was ignored, and there is no formal procedure in New
Zealand for such objection. This was a violation of procedural due
process under the United States Constitution, Fifth and Fourteenth
Amendments.
8. The Law Society Investigator demanded all files and bank records of
the Petitioner’s clients without a court order. Except for the two
complaining clients, the Petitioner refused production of bank
statements and the entirety of client files to the investigator for
reasons of client privacy and lawyer/client privilege. The investigator
obtained personal bank account details directly from the Petitioner’s

5

V

bank without a court order, later personally stating that clients and
lawyers have no rights in an investigation. This was a violation of
Procedural Due Process in that the investigator demanded and
obtained privileged and private records without a court order, and the
Petitioner refused to answer questions beyond the two complaining
clients. Since the decision by the Oregon Supreme Court, the Bar can
demand to see everything a lawyer has in relation to all clients and be
charged with failure to cooperate if they refuse access. Probable cause
for such extensive investigation would need to be compelling. The
investigation, demanding, and obtaining client records without a court
order are a violation of the Fifth and Fourteenth Amendments of the
United States Constitution.
9. The Bar has brought ten charges of violation of disciplinary rules, of
which nine were found violated. There are only two Oregon comparable
charges that were brought and succeeded in New Zealand. To place
those New Zealand charges within the Oregon context is inappropriate
and a violation of Due Process. BR 1.2 prohibits this Court and the Bar
from going beyond the rules for Oregon. Mixing and matching with
presumption is an inappropriate manner of upholding the law. The
rules presume a legal environment that is identical to the United
States, and New Zealand law is radically different, as displayed by
these Questions and the facts surrounding this case. This is a violation

6
of the Fifth and Fourteenth Amendments of the United States
Constitution.
PARTIES TO THE PROCEEDING
Christopher Knute Skagen, Petitioner
Oregon State Bar, Respondent
CORPORATE DISCLOSURE STATEMENT
Pursuant to Rule 29.6 of this Court’s Rules, Petitioner, Christopher Knute
Skagen, states that he has no parent company, and no publicly held
corporation owns 10% or more of its stock.
TABLE OF CONTENTS
Questions Presented.,

.Page 2

Parties to Proceeding,

Page 5

Corporate Disclosure.

Page 5

Table of Contents......

Page 6

Table of Authorities

..Page 7

Petition for Writ of Certiorari

.Page 8

Opinions Below........

.Page 8

Basis of Jurisdiction

.Page 9

Questions Presented on Appeal
Question 1.....................................

Page 18

Question 2.....................................

Page 19

Question 3.....................................

Page 21

Question 4.....................................

Page 25

Question 5.....................................

Page 27

Question 6.....................................

Page 30

r

7
Question* 7................

Page 33

Question 8................

Page 34

Question 9................

Page 36

Index of Appendices
Appendix A Oregon Supreme Court Judgment
Appendix B Trial Panel Opinion
Appendix C Accused’s Opening Brief - Oregon Supreme Court
TABLE OF AUTHORITIES
Armstrong vManzo 380 US 545, 552 (1965). 47
Attorney Grievance Comm'n ofMd. v. Wilde, No. 25749—M (Md.Cir.Ct. Mar.
30,2011). 29
Goldberg vKelley 397 US 254, 269 (1970). 48
Greene vMcElroy 360 US 474, 496-97 (1959). 48
In re Skagen 342 Or 183, 149 P3d 1171 (2006). 9
In re Skagen, 22 DB Rptr 292 (2008). 9
In re Wilde, 68 A.3rd 749 (D.C. 2013). 25, 26
Mathews vEldridge 424 US 319, 343-345 (1976). 48
Richardson v Perales 402 US 389 (1971). 48
Small v. United States, 544 U.S. 385 (2005). 25, 26, 27
United States Constitution, Fifth Amendment. 23,30,32, 33, 39, 40,45
United States Constitution, First Amendment. 39
United States Constitution, Fourteenth Amendment.23, 30, 32, 33, 39, 40, 45
ORS 24.370. 18
BR 3.5(a), 18
BR 1.2. 36

8
RPC 1.2 18
RPC 1.4 38
RPC 5.5 18
RPC 8.1. 38
The New Zealand Bill ofRights Act 1990. 23
Lawyers and Conveyancers Act 2006. 23, 25
Lawyers and Conveyancers Act 2006, Section 7(l)(a)(ii). 21, 22
Lawyers and Conveyancers Act (Conduct and Client Care Rules) 2008. 22
Lawyers and Conveyancers Act (Disciplinary Tribunal Regulations), 2008. 24,
26, 32, 31
Observance ofDue Process ofLaw Statute 1368. Page 23
Geoffrey Marshall, Due Process in England, in Nomos XVIII, eds J. Roland
Pennock & John W. Chapman, 69-92 (New York: New York University Press)
69. Page 30.
John D. Orth, Due Process ofLaw: A BriefHistory (Lawrence, KS: 2003) 3031. Page 30.
PETITION FOR A WRIT OF CERTIORARI
Petitioner respectfully seeks a Writ of Certiorari to review the judgment of
the Oregon Supreme Court.
OPINIONS BELOW
In re Complaint as to the Conduct of CHRISTOPHER K. SKAGEN, OSB No.
911020, 367 Or 236 (2020).
Skagen v Wellington Standards Committee of the New Zealand Law Society
[2015] NZHC 2634 (the Interlocutory Judgment)

9
Skagen v Wellington Standards Committee of the New Zealand Law Society
[2016] NZHC 1772 (the Substantive Judgment);
Skagen v Wellington Standards Committee of the New Zealand Law Society
[2016] NZHC 2799 (the First Recall Judgment);
Skagen v Wellington Standards Committee of the New Zealand Law Society
[2020] NZHC 762 (the Second Recall Judgment).
Skagen v Wellington Standards Committee of the New Zealand Law Society
[2021] NZHC 107 [Application whether permission to appeal is granted or not
allowed]
JURISDICTION
The Oregon Supreme Court entered judgment on 19 November, 2020.
20. The Court has jurisdiction under 28 U.S.C. §1257 as the next court of
appeal. 150 day Covid 19 filing Rule.

STATEMENT OF FACTS
The Petitioner included an extensive factual statement based on all
papers filed with the Court, including Attachment C, which contains the
Appeal filed with the Oregon Supreme Court. The numbering of those facts
as used here do not duplicate the cited facts in this writ (references to
Attachment C facts are noted - (C#). In the Oregon brief, facts are supported
by footnotes that relate back to all manner of pleadings filed with the High
Court. Except for legal conclusions cited in the facts, Respondent does not
appear to disagree with the facts (there are some legal conclusions that may

10
not be fact) as alleged by the Petitioner in the original appeal. Some are close
to the Oregon Supreme Court factual findings. Number 11 has been edited
as being over long and clumsy.
1. (C7)In February 2011 Petitioner entered into a contract with client E
to represent him in a matrimonial (divorce) proceeding. The
contractual agreement required the client to pay lump sum of $4,100
for half of the entire proceeding, which was paid.
2. (C8)Petitioner and Client E engaged as lawyer and client with a lump
sum fee. The instructing solicitor was conflicted out and E was told
that he needed to find another instructing solicitor.
3. (C9)Client found a different lawyer who demanded that Petitioner
return the entire fee, and who later filed a complaint against
Petitioner with the Law Society.
4. (C10)In April, 2011 the Petitioner was sent a letter notifying him of his
failure to make full payments on the Costs Award and demanded full
payment.
5. (Cll)In May 2011 Petitioner entered into a contract to represent client
W in a matrimonial matter for $6,900. Kevin Smith, a Barrister and
Solicitor instructed Petitioner and Petitioner communicated
extensively with W for the preparation of a Property Affidavit. The
reason why W hired Peitioner was because his previous lawyer was
unresponsive.

11
6. (C12)Subsequent to being hired by W, Petitioner communicated with
the client, and received email communications and Skype
communications regarding preparation of his Property Affidavit. W
stated in his affidavit, which the prosecutor assisted him in preparing,
that Petitioner had not communicated with him or done anything with
regard to the Property Affidavit.
7. (C13)Petitioner appeared at a telephone conference with the Court on
9 June 2011 regarding orders to supply a Property Affidavit by W, and
notified the client of the need to provide discovery. Client stated that
there were no further communications with the Petitioner. The client
perjured himself, and the prosecutor assisted with that perjury.
8. (C14)Petitioner had communicated fully with the client regarding
preparation of a detailed Property Affidavit, and prepared a property
affidavit for W that he could have sworn, but the instructing solicitor
refused to file it with the court.
9. (C15)Petitioner’s membership with the New Zealand Law Society was
due to expire 30 June, 2011. On June 23, 2011, one week before his
membership was to expire, he was notified by the Law Society that in
order for his membership with the Law Society to be renewed, he
would have to pay the entire amount of a Costs Award from an Oregon
disciplinary case which was brought against the Petitioner in New

12
Zealand, they stated that his failure to pay the costs order (of $4,100)
made him unfit to be allowed a practising certificate.
10.(C16)Petitioner notified them on 29 June, 2011 that he was unable to
pay the entire amount of the Costs Award, and requested that he be
allowed to bring payments current and continue to make payments.
11. (C17)Petitioner’s practising certificate lapsed on 30 June 2011.
12.(C18)The Fitness for Practice Committee met on 1 July 2011 and
decided that Petitioner’s explanations were unsatisfactory and
requested financial information in the form of an affidavit by 12 July
2011 showing that he could pay the entire costs amount.
13.(C19)On 15 July 2011, Petitioner was mailed a letter that referred to a
formal application and that his practising certificate had lapsed. There
was no enclosure included in, or accompanying, the letter.
14.(C20)On 18 July 2011, Petitioner was emailed an application for
renewal that required receipt and payment by 19 July 2011.
15.(C2l)On 19 July 2011, Petitioner sent an email that notified of his
intention to apply for a practising certificate.
16.(C22)On 20 July 2011, Petitioner received an email confirming that a
‘renewal pack’ was not mailed to him the previous week. The email
stated that it was emailed to him, but the Law Society records revealed
no such email, and the Law Society admitted that it had not been sent
as stated. He received the first notice at this time for maintaining his

13
practising certificate in a retroactive manner under s 40 of the
Lawyers and Conveyancers Act 2006.
17.(C23)Petitioner failed to notify W that his Law Society membership
had lapsed and that he would be unable to represent him in court.
18. (C24)Although the Petitioner had prepared a Property Affidavit that
he could have signed, the Instructing Solicitor, Kevin Smith, refused to
file the Property Affidavit and appeared by telephone with the
Petitioner, who notified the Court that he was unable to file the
Property Affidavit, and could not ‘appear’ at that hearing because his
Law Society membership had lapsed. The Instructing Solicitor refused
to ‘act’ for the client. The Court awarded costs against W and
Petitioner in the amount of $800.
19.(C25)Petitioner received a letter from the Law Society dated 3 August
2011 declining his application for a practising certificate based on the
fact of non-payment of the costs order which made him ‘disgraceful and
dishonourable,’ such finding being grounds for discipline in New
Zealand.
20.(C26)On August 29, 2011 Petitioner met with the Law Society
investigator and said he would provide all information on the two
complaining clients, but that records of personal bank deposits and
client files were protected by privilege. He had two meetings with the
Law Society investigator, who demanded that he produce all bank

14
records and all client files for him to view. Petitioner stated that he
would give the investigator all records of both clients, but refused to
provide all bank records and client files on the basis that all client
bank records and client files were protected by lawyer/client privilege.
21.(C27)ln October 2011, Petitioner emailed all client files of E and W to
the investigator.
22.(C28)In October 2011, Petitioner met with the investigator again to
discuss the complaints. The investigator placed a sheet before
Petitioner of his personal bank account records and began asking him
about every deposit made into that account. The investigator informed
Petitioner that he had obtained his bank records from his bank
because he was entitled to do that without a court order. Again,
Petitioner objected to answering questions about other clients and
deposits into his account, and also objected to the investigator
obtaining his account information without hearing or a court order.
23.(C29)Petitioner was not informed how the investigator obtained his
bank account information, and whether he had been given authority to
investigate all matters about both clients. He was “. . . adamant that
neither Petitioner nor his clients had any rights limiting searches by
him of bank records, and that his police powers of search were absolute
and untampered by any laws of restraint or objections of privilege. He
stated that there was no privilege available to lawyers or clients that

15
were the subject of a Law Society investigation.” The issue of the
investigator’s authority was raised with the High Court on appeal, and
was brushed aside.
24.(30)On June 19, 2013, 2013 the Standards Committee filed charges
against Petitioner alleging 12 rule violations relating to two client
complaints in addition to Petitioner’s failure to fully cooperate with the
Standards Committee.
25. (C3l)Recalling that he had changed his email address with the Law
Society in 2011, Petitioner waited until he was contacted at that email
address, promptly responded and accepted service by mail.
26. (C32)In an email to the Standards Committee case officer dated 14
October 2013, Petitioner stated “having reviewed the panel, I would
object to the inclusion of Wayne Chapman as a member, as his
presence would make me uncomfortable.” The Petitioner stated “ . . . I
learned that he had been disciplined and had since taken it upon
himself to campaign vigorously and unreasonably against any lawyer
accused of disciplinary violations.” There was no response to that
objection and it was not further pursued.
27.(C33)On November 6, 2013 Respondent filed responses to the charges
with an affidavit reciting facts in support of his denials.
28.(C34)On January 31, 2014, the Tribunal held a conference call with the
parties to discuss the case. Petitioner stated that he was unable to

16
attend the hearing in person because he could not afford to travel to
New Zealand. He also requested that the hearing take place by
telephone, which was refused. The prosecution suggested that the
hearing take place on the papers. Petitioner was uncertain whether
there were evidential issues. It can request witnesses be called, but it
did not. The Petitioner filed an affidavit in the High Court regarding
this meeting and disagreements about evidence and the law were both
raised at that meeting.
29. (C35)His application to be present was denied because a person must
according to the rules, be physically present at the substantive
hearing.
30. (C37)The prosecution stated in its ‘Submissions’ regarding E that
Petitioner was disingenuous and dishonest, and that his actions were
disgraceful and dishonourable. Petitioner was not charged with being
disingenuous and dishonest. The prosecution alleged that Petitioner
had done no work for W, and that it bordered “. . .on cynical and
dishonest offending . . .”
31.(C38)In their judgment, the panel found that Petitioner’s ‘position’
with regard to E was ‘disingenuous and dishonest’ and ‘dishonourable
and disgraceful,’ agreeing with the prosecution’s submissions.
32.(C39)The panel also agreed with prosecution’s dishonesty submissions
regarding W, stating that he had behaved in a similar manner.

17
33. (C43)Petitioner applied to file an affidavit containing further
information, which was granted.
34. (C45)The High Court upheld the findings of the Disciplinary Tribunal,
but did not allow costs against the Petitioner.
35. (C47)Prior to the Bar hearing the Petitioner discovered an email sent
to the Law Society investigator in 2011 which included several items
proving that he had done a significant amount of work for W and that
he had prepared a Property Affidavit based on significant
communications with the client by email and using Skype.
36. (C48)The affidavit of W stated that Petitioner had not communicated
with the client about the Property Affidavit, and had not worked on his
case, except for a conference with the Court.
37.(C50)Mr MacKenzie, in his Submissions to the Tribunal, alleged that
the facts were the same surrounding E and W, that the Petitioner had
treated both clients in the same fashion, and that, like E, he had done
no work for W.
38.(C5l)Mr. MacKenzie also alleged that Petitioner’s pleadings, in stating
he had done no work for W, were disingenuous, and that Petitioner’s
statements bordered on being dishonest.
39.(C52)The Tribunal accepted the submissions of Mr. MacKenzie in their
entirety, and stated, “We agree with counsel’s submission that it
borders on cynical and intentional dishonesty that Mr. Skagen, having

,

18
concluded his conduct in respect of Mr. Edmeades, went on to behave
in a similar manner towards Mr. Wolvetang.” which reflected his
submissions almost exactly.
40. (C53)Subsequent to the Bar hearing, Petitioner filed a Motion to
Amend Answer which was ignored by the Bar and the adjudicator.
Based on evidentiary discoveries, which lay the foundation for
prosecutorial fraud, the Petitioner filed an appeal in the New Zealand
Court of Appeals, case no CA2672020, within the six year limit for
requesting a rehearing.
1. FIRST QUESTION - Foreign Judgment

Procedure for recognition of a foreign-country judgement is governed
by ORS 24.370.1 Under subsection (l) the Bar has filed an original action,
and in subsection (2) the Petitioner has raised as an affirmative defense. In
order for a judgment to be enforced, the originating statute must state ‘and a
court of a foreign country,’ and not just state ‘judgment,’ as in BR 3.5(a), but
it must, therefore the judgment from New Zealand cannot be enforced
reciprocally. Neither BR 3.5 (a), nor RPC 5.5 define jurisdiction or include a
judgment from a foreign country jurisdiction, or meet the requirement of

1 ORS 24.370. Procedure for recognition of a foreign-country judgment.
If recognition of a foreign-country judgment is sought as an original matter,
(1)
the issue of recognition shall be raised by filing an action seeking recognition of the foreigncountry judgment.
If recognition of a foreign-country judgment is sought in a pending action, the
(2)
issue of recognition may be raised by counterclaim, cross-claim or affirmative defense.

19
Small v. United States, 544 U.S. 385 (2005); cf In re Wilde, 68 A.3rd 749 (D.C.
2013).
The plain meaning of‘jurisdiction’ is intended to refer to State and
Federal jurisdictions, but not the expansive rule covering jurisdictions over
the entire planet. RPC 1.2, Authority, the Bar rules do not grant authority
over the entire planet. The Oregon Supreme Court distinguished the
Petitioners arguments. Its analysis of this question extends to over three
pages (Appendix A, pages 14-17). Disciplinary and criminal judgments can
result in disbarment. The effect of disciplinary judgments is, like criminal
matters, a life-long judgment of shame on a lawyer/person. The standards of
New Zealand’s disciplinary system are reflected in all the questions
presented, and they are lacking compared to the United States. Acceptance of
this reduced standard of evidence in disciplinary proceedings is a national
concern for lawyers and clients.
2. QUESTION TWO - lesser standard of evidence
The statutory standard of evidence in New Zealand is ‘on the balance
of probabilities.’ This standard is not sufficient to allow a finding in the
United States, which requires a higher standard of evidence. The Court erred
in stating that such evidence standard was sufficient to uphold a disciplinary
violation in Oregon.
The standard of evidence required to pass judgment on a lawyer in
New Zealand is ‘on the balance of probabilities,’ pursuant to Section 241 of

20

the La w Practitioners Act 2006, whereas the standard of evidence in Oregon
disciplinary proceedings, which are considered sui generis, is ‘clear and
convincing evidence.’ In all the cases involving ‘clear and convincing
evidence,’ it is required that the prosecution not just make an inference, but
that the lawyer knowingly and deliberately violated a rule without
justification. Throughout, Petitioner has alleged privilege as his basis and
justification for refusing to divulge client information, and he disagreed with
important factual assessments because they omitted key facts.
In Attorney Grievance Comm'n ofMd. v. Wilde, No. 25749-M
(Md.Cir.Ct. Mar. 30, 2011), the Maryland court did not recognize the foreign
country judgment, but instead found that the Bar had not proved criminal
behavior of the lawyer “by clear and convincing evidence.” That court did not
advance to consider the judgment itself. This case is significant because in a
criminal case the test is ‘beyond a reasonable doubt,’ and South Korea does
not use such an evidentiary test in criminal matters. Both attorney discipline
and criminal matters are treated with a test that is much more than just ‘on
the balance of probabilities.’
To accept this lower standard of evidence in Oregon inflates the
proceeding in a foreign country to a rehearing in Oregon of the original
matter, in that it applies a radically different evidentiary standard to matters
sought to be accepted as proven from a jurisdiction that possesses lesser
standards of evidence.

21
The Oregon Supreme Court dealt with this issue by stating there is no
prescribed standard of evidence, and that they routinely allow judgments
from states using less than the ‘clear and convincing’ standard, and support
this with a footnote of cases allowed.2 No state using the ‘balance of
probabilities’ test is provided by the Bar or the Oregon Supreme Court, and
because no state apparently uses this lesser evidentiary standard, it is
compelling evidence that due process in lawyer disciplinary proceedings in
the United States require a higher standard. Using the standard of‘balance
of probabilities’ is anathema to United States disciplinary proceedings and
use of it was a violation of due process.
The higher standard of proof required of disciplinary proceedings has
the same effect on a lawyers as criminal proceedings in that a disciplinary is
a lifelong judgment of disgrace.
The Due Process violations alleged by the Petitioner are several, and
they collectively represent a system that is not a compatible with the
equivalent United States standards. The lower standards of New Zealand
disciplinary prosecution in general are outlined in most of these questions.
The lesser standard of evidence is a violation of the United States
Constitution, Fifth Amendment; Fourteenth Amendment.
3. QUESTION THREE - Vagueness - Substantive Due Process
V

2 Appendix A, page 19, lines 5T2 and footnote 10.

22
The Petitioner invoked the substantive due process argument of
vagueness which embodies the definition of misconduct in New Zealand. The
statutory definition of misconduct contained within the Lawyers and
Conveyancers Act 2006, Section 7(l)(a)(ii), is autocratic, subjective and
majoritarian, violating the United States and Oregon constitutional
standards of substantive Due Process.
The New Zealand meaning of ‘misconduct’ is unlimited in its
description of human behavior, creating a vague and uncertain legal
environment, allowing a disciplinary body to prosecute on a whim for
anything that they decide. Allowing a judgment from New Zealand for
misconduct that is based on a vague law would be a violation of the
Petitioner’s right to due process and opportunity to be heard. The Lawyers
and Conveyancers Act 2006, defines misconduct, in part, in Section 7(l)(a)(ii)
as, “that would reasonably be regarded by lawyers of good standing as
disgraceful or dishonourable.” This is an example of majoritarian enactments
that exceed the limits of governmental authority, and its supporting
provisions are replete with vagueness. It cannot be enforced. These laws are
prohibited in the United States, and the Bar is seeking enforcement of this
law.
Charges may be brought under Section 241 of the Act. Section 242
allows for any orders to be made. The Law Society found that Petitioner’s
failure to pay a costs bill was disgraceful and dishonourable, and yet they

23

were violating New Zealand law by demanding full payment of the Costs
Order, which was a property lien on his property right to practice law, which
is illegal in New Zealand and in Oregon.
The Lawyers and Conveyancers Act (Lawyers-' Conduct and Client
Care) Rules 2008 states a broad and vague addendum to the meaning of
misconduct.3 The plain meaning of misconduct is so expansive and vague that
it violates the principles of substantive due process. It relies on a select few
lawyers to make the law. In other words, misconduct can be based on
anything the disciplinary tribunal wants, regardless of whether there is a
rule, the Law Society can make up the rules as they go along, constructing
new charges and issuing judgment without due process, which is what
happened in this case. The rules are vague and entitle the Law Society to
prosecute a lawyer under any imaginable circumstance.
Section 152 of the Lawyers and Conveyancers Act 2006 requires notice
of a disciplinary charge to a lawyer. Section 158 requires notice of the
determination. Part 7 of the Act includes Sections 120 to 272 outlining the
powers of the tribunal. Use of the New Zealand standards of Due Process in
the United States or Oregon would be a violation of the Petitioner’s Due
Process rights.

3 “The rules are not an exhaustive statement of the conduct expected of lawyers. They
set the minimum standards that lawyers must observe and are a reference point for
disciphne. A charge of misconduct or unsatisfactory conduct may be brought and a conviction
may be obtained despite the charge not being based on a breach of any specific rule, nor on a
breach of some other rule or regulation made under the Act.”

24

Due process is undefined in the New Zealand Bill ofRights Act. 1990,
but requires notice and hearing, as defined in Observance ofDue Process of
Law Statute 1368.4 The appropriate measure of due process is that contained
in the Law Society rules, whether notice and hearing according to Oregon
standards is contained therein, and also whether the New Zealand
proceedings complied with United States and Oregon standards of Due
Process.

Section 250 allows making their own hearing rules, and Section 252
allows its own procedures. The procedures are contained in Lawyers and
Conveyancers Act (Disciplinary Tribunal) Regulations 2008.

A tribunal at hearing can at any time by its own motion amend or add
to charges without notice.5 The tribunal hearing should have been adjourned
because it surprised the Petitioner and ‘prejudiced the conduct of the case’ in
that it changed the evidentiary balance by marginalizing, and hence reducing

4 None shall be put to answer without due process of law ITEM, at the
request of the Commons by their petitions put forth in this Parliament, to eschew the
mischiefs and damages done to divers of his Commons by false accusers, which oftentimes
have made their accusations more for revenge and singular benefit, than for the profit of the
King, or of his people, which accused persons, some have been taken, and sometime caused to
come before the King's Council by writ, and otherwise upon grievous pain against the law: It
is assented and accorded, for the good governance of the Commons, that no man be put to
answer without presentment before Justices, or matter of record, or by due process and writ
original, according to the old law of the land: And if any thing from henceforth be done to the
contrary, it shall be void in the law, and holden for error.
5 24 Amendment of or addition to charge
(l) At the hearing of a charge, the Disciplinary Tribunal may of its own
the
motion or on the application of any party, amend or add to the charge if
Tribunal considers it appropriate to do so.

25
his credibility by alleging dishonesty in him raising defenses and using
acceptable legal rationale by way of explanation.6 They found that Petitioner
was cynical,’ disingenuous and ‘dishonest.’ They used their ability to expand
or

add to charges and did it without notice or a hearing, which is their right
They had the right to dispense with requirements of due process at the

hearing, and they did that. The Petitioner was not present to request an
adjournment.

The Oregon Supreme Court stated that, “Therefore, the fact that the
New Zealand disciplinary rules include some terms that, on their face, may
appear vague, does not persuade us that, as a whole, the New Zealand
attorney discipline system does not provide lawyers with notice of what is
expected.”7 The Court considered this question briefly

(Appendix A, Page 1

9, line 13 — Page 20, line 9). The laws of prosecution are vague and a violation
of substantive due process. The Court considered judgment on six charges as
justification to ignore this argument, which eliminated the need apparently
to address the vagueness arguments. As argued above, and contrary to that
pointed out by the Oregon Supreme Court, what is expected is chaos and
unfairness. The Petitioner has provided substantial evidence of vagueness

6 24 (2) The Disciplinary Tribunal must adjourn the hearing if it considers that
the amendment or addition would—
(a) take the person charged by surprise; or
(b) prejudice the conduct of the case.
7 Appendix A, pages 19-20, the quote is at page 20, lines 6'9.

26
beyond that of the originating statute that was not considered by the Oregon
Supreme Court, and therefore the United States constitutional standard of
substantive due process has not been met. The New Zealand judgment
violated the United States Constitution, Fifth Amendment; Fourteenth Amen
dment.

4. QUESTION FOUR - First and Fourteenth Amendments - free speech at
trial and in pleadings.
The tribunal and the High Court used the defenses and factual and
legal arguments in Petitioner’s pleadings as a means of questioning
Petitioner’s honesty and inflaming the proceedings. Petitioner’s honesty and
integrity were criticized, and his evidence was marginalized and ignored.
This was a violation of procedural due process and a violation of his
substantive due process rights under the First and Fourteenth Amendments
of the United States constitution. Statement of Facts 26-34.

The disciplinary Tribunal found that Petitioner’s defense prior to, and
in the proceedings were ‘arrogance,’ ‘cynical,’ ‘disingenuous,’ and ‘dishonest,’
saying it “borders on cynical and intentional dishonesty” and “We have
referred to practitioner’s cynical and dishonest conduct, which was sustained.
We have also had regard to the practitioner’s arrogance in response to the
investigation.” The High Court did not repeat the word ‘arrogance.’

27
Viewed from United States and Oregon standards of due process, such
findings were a violation of the Petitioner’s right to due process and an
opportunity to be heard. Although he was not charged with dishonesty, they
in effect created a new charge (which they are entitled to do) and found him
guilty without charge or hearing on that matter. These were due process
violations of Free speech under the First, and Fourteenth Amendments of the
United States Constitution.
As his own advocate at his trial, the tribunal judged his presentation of
defenses as arrogant, dishonest and cynical. A fundamental principle of
defense is the freedom to use any defenses, argue fully, and present it with
decorum. To raise the Petitioner’s defense to a level approaching contempt,
with its ability to lay new charges without notice or an opportunity to be
heard, and without an ability to present sentencing arguments, is a violation
of the First and Fourteenth Amendments in violation of his due process
rights and an opportunity to be heard. Section 24 of the Lawyers and
Conveyancers Act (Disciplinary Tribunal) Regulations 2008 allows
amendment or addition to charges at hearing without notice.
The Oregon Supreme Court did not address this issue.
5. FIFTH ASSIGNMENT OF ERROR - Due Process - suspension and
cancellation of membership with the Law Society without adequate notice
and no hearing.

28
The Law Society suspended Petitioner from the practice of law without
adequate notice or any hearing (Statement of Facts, paragraphs 9'16) This
resulted in his inability to appear for W and resulted in several alleged
disciplinary violations. This was a violation of due process. The High Court
eliminated facts surrounding his nonrenewal which resulted in his inability
to use it as a defense to his failure to appear in court for W, which was also a
violation of due process.
The Oregon Supreme Court cited the factual details of non-renewal in
a manner different than the Petitioner (Appendix A page 4, line 6, to Page 5,
line 20). The Petitioner’s Statement of Facts, reflect a different view of the
facts. The Petitioner was given little notice, was prosecuted, disciplined and
prevented from practice without a hearing. The Oregon Supreme Court did
not address this question, but noted that the Petitioner did not pay his
renewal fee (Appendix A Page 5, line 20 and footnote 4), also noting in the
footnote that “In August 2011 the New Zealand Law Society informed
respondent that it had declined to renew his licence, stating that it found his
nonpayment of costs “disgraceful and dishonourable,” which is grounds for
discipline in New Zealand.” The Petitioner was not just required to pay his
yearly fee for practice, but also the entire costs judgment, which was
impossible.
The Law Society can refuse issuance of a practising certificate without
due process. There are no due process rules requiring notice and hearing

29
prior to refusal of a lawyers Practising Certificate. The Petitioner was
notified on April 1, 2011 that, due to non-payment on the agreed terms, the
entire amount of a costs order was due. On 23 June, 2011, one week before
his Law Society membership was due for renewal, the Petitioner was notified
that his practising certificate would not be renewed unless he paid the full
amount of the costs order demanded. The Petitioner was not sent a renewal
notice until after his practising certificate had lapsed. The Petitioner objected
that he had not been given fair notice, and that before suspending his right to
practice law, he was entitled to a hearing. The Petitioner had a property
interest in maintaining his practising certificate, and his property interest in
the practice of law was suspended without notice or opportunity to be heard.
Petitioner’s right to due process before suspension of his practising certificate
was denied. By refusing to issue a practising certificate without proper notice
and a hearing, damage was caused to a client, and Petitioner was unable to
continue the performance of a contract of services. Petitioner was unable to
repay the unearned portion of both client’s fees because he was unable to
maintain and pursue his property interest in being a lawyer.

The High Court chose not consider the Petitioner’s arguments and
claims over due process violation of failure to renew his Practising
Certificate. Facts about attempts to renew his Practising Certificate were
removed from consideration issues remaining in his disfavour, removing
many defenses that were available.

■

l>

30

d

As a result of this he was unable to represent a client to file a property
affidavit in a divorce matter. He had prepared an affidavit that could have
been filed to prevent the costs order against the client, but the Instructing
Solicitor refused to allow its filing and service on opposing counsel. The
solicitor appeared at the hearing with the Petitioner present, explaining why
the failure had happened, (statement of Factsl8, page 13)

The Petitioner spent 3 weeks attempting to renew membership and
had a Property Affidavit prepared.

Failure to renew Petitioner’s Practising Certificate was a violation of
due process, the United States Constitution, Fifth Amendment; Fourteenth
Amendment.
Evidence suggests that after the Nineteenth Century the American
.concepts of due process and the British system of parliamentary supremacy
diverged radically. It is said, “. . . the great phrases failed to retain their
vitality”,8 such attribution being the rise of parliamentary supremacy and
hostility to judicial review as an undemocratic foreign invention.9 This
hostility towards due process is mirrored in the actions and judgments of the
tribunal and the High Court.
The Oregon Supreme Court did not address this question.
5. QUESTION SIX - Due Process - Hearing

8 John D. Orth, Due Process ofLaw- A BriefHistory {Lawrence, KS: 2003) 30-31.
9 Orth, 29.

li

31
The Petitioner was unable to appear at the tribunal hearing by
audio/video because they are prohibited at a hearing and a defendant is
required to appear in person. Pertinent facts are contained in items 24-39 of
the Statement of Facts of this writ. He could not subpoena witnesses, nor are
witnesses called for hearing. He was unable to confront and cross-examine
witnesses. This was a violation of procedural due process. He disagreed on
substantial issues of fact throughout proceedings. One witness perjured
himself with the assistance of the prosecutor, which was proven by testimony
of that prosecutor at the Bar hearing.
New Zealand disciplinary regulations do not allow appearance at a
hearing by telephone or video, which is a violation of due process and an
opportunity to be heard. Section 33(c) of the Lawyers and Conveyancers Act
(Disciplinary Tribunal) Regulations 2008 does not allow telephone or video at
substantive disciplinary hearings. A substantive hearing does not allow
telephone or video, Rule 33 which was requested by Petitioner and declined.
The notice and the hearing must “must be granted at a meaningful
time and in a meaningful manner.” Armstrong vManzo 380 US 545, 552
(1965). The hearing was not granted in a meaningful manner. There were
factual disputes over one client affidavit, and those disputes centered around
whether Petitioner had done work on the client matter. Client W perjured
himself with the knowing assistance of the prosecution, (see Statement of
Facts, 30-39, page 17)

The hearing was held in the absence of Petitioner,

32
on the papers, prosecuting counsel was present, and the Petitioner was
unable to cross-examine witnesses. The High Court only allowed a further
affidavit to be filed by Petitioner with limitations. Due process in the United
States requires that a Petitioner be able to confront and cross-examine
witnesses. This is not allowed in New Zealand, as the cases are usually
conducted ‘on the papers,’ which include affidavits, unless the tribunal directs
otherwise. Whether the New Zealand standards are/were applied is a
significant question. The hearing is conducted through affidavits and the
person charged is not entitled to cross-examine unless the person charged is
present, and the tribunal has asked for witnesses.10 Lawyers and
Conveyancers Act (Disciplinary Tribunal) Regulations 2008.
Section 24 theoretically does not allow witness evidence at hearing,
conflicting with the Section 25 which allows witness evidence. Hearings are
allowed, but witnesses are not allowed at substantive hearings unless
requested by the panel. A defendant has no right to subpoena or call
witnesses.
In New Zealand, a lawyer is forbidden to speak with and assist
witnesses, whereas in Oregon it is permitted. In addition, in Oregon
disciplinary matters, the judge is entitled to change the proceeding in order

10 25 Evidence
(l)All evidence must be given by affidavit unless the Disciplinary Tribunal directs
otherwise.
(2)A11 witnesses must be available for cross-examination if required by
the
Disciplinary Tribunal.

33

to call witnesses, which was effected in the present case. Goldberg vKelley
397 US 254, 269 (1970). The Petitioner has always had evidentiary
disputes with the Law Society witnesses. Administrative decisions. Greene
vMcElroy 360 US 474, 496-97 (1959). The Petitioner was unable to
subpoena witnesses. If a person is able to subpoena witnesses, then they
cannot complain that they were denied due process. Richardson v Perales
402 US 389 (1971) cf Mathews v Eldridge 424 US 319, 343-345 (1976). The
procedural rules carried through to the High Court proceedings.
The Petitioner could not obtain further evidence, but was allowed to
file further affidavits from himself. The prosecutor deliberately withheld
exculpatory evidence of substantial work done for a client in order to support
accusations of dishonesty by the Petitioner. This was a violation of procedural
due process. Statement of Facts, item 21, page 13 is the email of client
information.
Prosecutorial misconduct with regard to the due process right of
confronting witnesses is important as a consideration. In his evidence
presented, the Petitioner always disagreed with the affidavit of client W, and
the instructing lawyer, Kevin Smith. From the submissions and the
supporting client affidavit, the client perjured himself, and because the
prosecutor was aware that the Petitioner had done substantial work from
evidence given to the investigator, that the prosecutor assisted in that
perjury and lied in the proceedings. The perjury related to material evidence

A

34

i-

of whether the Petitioner had done substantial work for the client. Through
information given in the investigation, these two parties were also aware that
the Petitioner had lost all of his emails with that client.
The issue is whether, in Oregon, withholding important discovery by
the prosecution is governed by administrative lawyer misconduct, but this is
different because it involves lawyers, and discipline.
In addition, the prosecutor misled the Tribunal by withholding exculpatory
evidence, suborning the perjury of W, and referring to Petitioner as
disingenuous and dishonest.
The New Zealand case violated due process in the manner explained
above, and violated the United States Constitution, Fifth Amendment;
Fourteenth Amendment.
7. QUESTION SEVEN - Due Process - objection to trial panel member.
The Petitioner objected to one member of the tribunal panel, and his
objection was ignored; there is no formal procedure in New Zealand for such
objection. Statement of Facts, number 27, page 15 expresses what happened
with the Tribunal.
The Petitioner objected to one member of the disciplinary panel sitting
on the basis that he would not be an impartial judge. He was not directed or
required to file anything as a formal objection, and in fact this objection was
ignored. The Petitioner’s factual statement is misleading because the
Petitioner shared what he had heard about the member in his affidavit.

%

35
There was no response from the panel, so the issue was not explored. Denial,
and there being no rule for objecting to a member was a denial of his due
process right to object and be heard. The result of this failure is that the case
might have gone quite differently with a different member, and the dynamic
of the proceedings was set, which is difficult to challenge through the High
Court. The New Zealand judgment violates the United States Constitution,
Fifth Amendment; Fourteenth Amendment.
The Oregon Supreme Court did not address this question.
8. QUESTION EIGHT - Due Process - client privilege - court orders.
Since the decision by the Oregon Supreme Court in this case, the Bar
can demand to see everything a lawyer has in relation to all clients and be
charged with failure to cooperate if they refuse on the basis of privilege or
any other theory. To have open access to such sensitive information without a
court order places the entire power of a lawyer into the hands of the Bar.
Probable cause for such investigation would need to be compelling. The
Petitioner refused the demanded production of bank statements and the
entirety of client files to the investigator on the basis of client privacy and
lawyer/client privilege. The investigator obtained his personal bank account
details from the bank without a court order and stated that clients and
lawyers have no rights in an investigation. This was a violation of due
process in that the investigator obtained privileged and private records

36
without a court order. In both Oregon disciplinary cases,11 the Petitioner
raised his objection to producing client trust account records as being
privileged. In Skagen 2 a court order was obtained because of this refusal and
he complied. In this case they demanded all client files and bank records. The
pertinent facts are set out in items 20-23 of The Statement of Facts.
The Petitioner’s privacy interests and those of his clients were ignored.
Details of his personal bank account were obtained without court order, for
the purpose of having access to all client files over his objection of privilege as
contained in Section 271 of the Act, which states “Legal professional
privilege. Nothing in this Part limits or affects legal professional privilege.”
This claim was made repeatedly by Petitioner and ignored repeatedly in all
proceedings.
There are privacy disclosure rules in the Act that limit the information
that a lawyer can share about non-complaining clients. Reading this subject
to Section 271 privilege, the Petitioner was acting within his rights and the
rights of his clients.
The investigator was appointed to investigate under Sections 144 -147
of the Lawyers and Conveyancers Act 2006, and he had broad powers to
investigate. The Bar does not have such extensive powers to override claims
of privilege or go directly to obtain personal bank records without notice,

11 In re Skagen 342 Or 183, 149 P3d 1171 (2006). In re Skagen, 22 DB Rptr 292 (2008)
Skagen 2.

u

37
hearing, and a court order. Under the Lawyers and Conveyancers Act
(Lawyers: Conduct and Client Care) Rules 2008, Rules 8.1 to 8.3, there are
requirements regarding response to such inquiries with regard to client
confidences, and when disclosure is required.
The New Zealand disciplinary judgment that the Bar seeks to enforce
found that Petitioner’s claims of privacy and privilege in response to the
investigator’s demands was unacceptable. The investigator, apparently with
his authority as an officer of the court, issued a demand that Petitioner
produce information to him regarding all his client files and bank records.
The Petitioner refused and was prosecuted on the basis that there were no
defenses to his refusal to accept this demand. Petitioner, as lawyer and
representative of clients, was not given the right to claim privacy and
privilege in their behalf; such claims of client protection should be placed
before a judge. The High Court held that “Privilege is for the client to claim.”
This view of privacy and privilege is a violation of the Petitioner and his
client’s due process notice and right to be heard. The New Zealand judgment
violates the United States Constitution, Fifth Amendment; Fourteenth
Amendment.
The Oregon Supreme Court did not address this question.

9. QUESTION NINE - Due Process - constructing new charges.
The Bar has brought ten charges of violation of disciplinary rules, of
which 9 were found violated, while there are only two Oregon closely

f
u

38
compatible charges that were brought and succeeded in New Zealand. To
place those New Zealand charges within the Oregon context is inappropriate
and a violation of due process under the Fifth and Fourteenth Amendments
of the United States Constitution. BR 1.2 prohibits this Court and the Bar
from going beyond the rules for Oregon.
Dealing with the ten charges made against Petitioner by the Oregon
State Bar, which grew from New Zealand charges based on two recognizable
violations of the disciplinary system is a stretch of art, or exercise of legal
imagination. As stated above, New Zealand is a foreign country jurisdiction
possessing different rules for Barrister, and Barrister and Solicitor.
Failure to cooperate with an investigation is an Oregon allegation that
requires deeper inquiry in the Oregon context because the Petitioner has
spent the last 17 years engaged in disciplinary defence, in large part, because
of his belief in a foundation of legal representation, which is the protection of
client information, and is called ‘privilege.’
Also, the New Zealand violations were based ‘on the balance of
probabilities’ test which as stated above is a lighter evidentiary step than
‘clear and convincing evidence.’ To dig into a plethora of Oregon charges of
marked dissimilarity is an unfair exercise of prosecutorial powers in that the
prosecution is asking of this tribunal that it ignore the Oregon and United
States principles of due process, which is notice and a fair hearing of the
charges. Of the twelve charges made against the Petitioner in New Zealand,

«r%

39
only six charges were proven and four were dismissed by the prosecution at
hearing (excessive fees). Of those six charges, only two have a roughly
equivalent rule or statute in Oregon (RPC 1.4(a); RPC 8.1(a)(2). Some or all of
the questions presented could apply to any one charge. Arguments regarding
due process are a valid defense to any one charge.

The Oregon State Bar wishes to expand their rules to include the
disciplinary rules of a foreign country jurisdiction, which is an inappropriate
extension of its jurisdiction, and outside the ambit of these proceedings,
except where noted. To extend its jurisdiction into that of another country
would in effect allow it to bring charges in Oregon for factual and legal issues
that were uncharged overseas and extant in that jurisdiction.

The two enumerated equivalent Oregon sanctions, individually or
collectively would not subject the Petitioner to disbarment in Oregon,
considering Petitioner’s history of discipline. The Oregon Bar has asked that
the Petitioner be disbarred, and according to cited cases, these violations are
insufficient to establish a coherent pattern of offending, and the combination
cannot rise to the level of disbarment. Also, an Oregon finding of lesser
discipline would not be appropriate because none of the current Oregon
charges were considered by New Zealand in making their decision to strike
the Petitioner off the list of Barristers. The Oregon Supreme Court did not

ir
40
address this question, except as an aside in sentencing (Appendix A, Page 21
lines 8-10).

Dated this 16th day of April, 2019

Christopher
Pro se

ute Skagen OSB# 911020

COMBINED CERTIFICATE OF COMPLIANCE WITH BRIEF LENGTH
AND TYPE SIZE REQUIREMENTS, AND CERTIFICATES OF FILING
AND SERVICE
(l) I certify that this brief complies with the word-count limitation and page
count limitation.
(2) I certify that the size of the type in this brief is not smaller than 12 point
for the text of the brief and ten point for the footnotes.
(3) I certify that the brief was mailed by UPS under their three day delivery
policy and picked up for delivery to the United States Supreme Court, and a
copy was sent to the Respondent on 16 April, 2021 in the same manner. I
certify that service of a copy of this brief will be accomplished on the following
participants in this case by email upon SCournover@osbar.org.

DATED Dated this 16th day of April, 2019

Christopher Knute^Skagen OSB #911020
Pro se

